No. __________

In the
Supreme Court of the United States
JORGE RANGEL,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

Certificate of Service

CUAUHTEMOC ORTEGA
Federal Public Defender
JAMES H. LOCKLIN *
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Tel: 213-894-2929
Fax: 213-894-0081
Email: James_Locklin@fd.org
Attorneys for Petitioner
*
Counsel of Record

I, James H. Locklin, hereby certify that on March 5, 2021, a copy of petitioner’s Motion for
Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari to the United States Court
of Appeals for the Ninth Circuit were mailed postage prepaid, to the Solicitor General of the
United States, Department of Justice, Room 5616, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001, counsel for the Respondent.
In addition, a copy of petitioner’s Motion for Leave to Proceed in Forma Pauperis and
Petition for Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit was
emailed to the Solicitor General at SupremeCtBriefs@usdoj.gov.

March 5, 2021

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

JAMES H. LOCKLIN *
Deputy Federal Public Defender
Attorneys for Petitioner
*
Counsel of Record

2

